<html>
<title> - SBA MANAGEMENT REVIEW: SBA IG REPORT ON THE MOST SERIOUS MANAGEMENT AND PERFORMANCE CHALLENGES FACING THE SBA</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
SBA MANAGEMENT REVIEW: SBA IG REPORT ON THE MOST SERIOUS MANAGEMENT AND 
                 PERFORMANCE CHALLENGES FACING THE SBA

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                            OCTOBER 16, 2019

                               __________

          [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                     
                               

            Small Business Committee Document Number 116-050
             Available via the GPO Website: www.govinfo.gov
             
             
             
                           ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 37-988                 WASHINGTON : 2020
 
 
 
            
             
                   HOUSE COMMITTEE ON SMALL BUSINESS

                 NYDIA VELAZQUEZ, New York, Chairwoman
                         ABBY FINKENAUER, Iowa
                          JARED GOLDEN, Maine
                          ANDY KIM, New Jersey
                          JASON CROW, Colorado
                         SHARICE DAVIDS, Kansas
                          JUDY CHU, California
                           MARC VEASEY, Texas
                       DWIGHT EVANS, Pennsylvania
                        BRAD SCHNEIDER, Illinois
                      ADRIANO ESPAILLAT, New York
                       ANTONIO DELGADO, New York
                     CHRISSY HOULAHAN, Pennsylvania
                         ANGIE CRAIG, Minnesota
                   STEVE CHABOT, Ohio, Ranking Member
   AUMUA AMATA COLEMAN RADEWAGEN, American Samoa, Vice Ranking Member
                       DAN BISHOP, North Carolina
                          TROY BALDERSON, Ohio
                          KEVIN HERN, Oklahoma
                        JIM HAGEDORN, Minnesota
                        PETE STAUBER, Minnesota
                        TIM BURCHETT, Tennessee
                          ROSS SPANO, Florida
                        JOHN JOYCE, Pennsylvania

                Adam Minehardt, Majority Staff Director
     Melissa Jung, Majority Deputy Staff Director and Chief Counsel
                   Kevin Fitzpatrick, Staff Director
                   
                   
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Nydia Velazquez.............................................     1
Hon. Steve Chabot................................................     2

                                WITNESS

Mr. Hannibal ``Mike'' Ware, Inspector General, United States 
  Small Business Administration, Washington, DC..................     4

                                APPENDIX

Prepared Statements:
    Mr. Hannibal ``Mike'' Ware, Inspector General, United States 
      Small Business Administration, Washington, DC..............    22
Questions and Answers for the Record:
    Questions from Hon. Velazquez, Hon. Crow, and Hon. Schneider 
      to Mr. Hannibal ``Mike'' Ware and Answers from Mr. Hannibal 
      ``Mike'' Ware..............................................    27
Additional Material for the Record:
    Letter to Robert Wong........................................    43
    Report on the Most Serious Management and Performance 
      Challenges Facing the Small Business Administration in 
      Fiscal Year 2020...........................................    46
    SBIA - Small Business Investor Alliance......................    73


SBA MANAGEMENT REVIEW: SBA IG REPORT ON THE MOST SERIOUS MANAGEMENT AND 
                 PERFORMANCE CHALLENGES FACING THE SBA

                              ----------                              


                      WEDNESDAY, OCTOBER 16, 2019

                  House of Representatives,
               Committee on Small Business,
                                                    Washington, DC.
    The committee met, pursuant to call, at 11:31 a.m., in Room 
2360, Rayburn House Office Building. Hon. Nydia Velazquez 
[chairwoman of the Committee] presiding.
    Present: Representatives Velazquez, Finkenauer, Golden, 
Kim, Crow, Davids, Chu, Evans, Schneider, Delgado, Chabot, 
Balderson, Hern, and Stauber.
    Chairwoman VELAZQUEZ. Good morning. The committee will come 
to order.
    I would like to welcome back before the committee the 
Inspector General of the Small Business Administration, the 
Honorable Mike Ware. Today the committee is holding an 
important oversight hearing, during which we will examine the 
most serious management and performance challenges facing the 
SBA. We will also discuss the Office of Inspector General's 
recommendations for addressing these challenges, as we seek to 
better understand their underlying causes.
    The IG is a nonpartisan, independent watchdog tasked with 
auditing, investigating, and promoting efficiency at SBA. 
Simply put, the IG plays a critical role in protecting 
taxpayers dollars and making sure the agency is fulfilling its 
mission.
    In fiscal year 2019 alone, the IG achieved more than $110 
million in recoveries and savings, a fivefold return on 
investment to the taxpayers. Every year, the IG is charged with 
reporting to this committee on SBA's top management and 
performance challenges. This report not only helps with our 
oversight responsibilities, but also provides SBA with specific 
recommendations to address these challenges. Unfortunately, 
many of these issues are longstanding challenges.
    One area of persistent concern is the SBA's small business 
contracting programs. The IG continues to identify critical 
weaknesses in SBA's oversight of its contracting programs, 
which exposes them to fraud and abuse. In fact, the IG found 
that ineligible 8(a) firms continue to compete with and receive 
federal awards intended to assist disadvantaged small 
businesses under the 8(a) program. Whether this is due to the 
streamline application process meant to reduce burdens on 
applicants or poor management of continued eligibility reviews, 
it is imperative for SBA to take corrective actions.
    Another area of the report that troubles me is that SBA has 
not implemented a certification process for its women's 
procurement program given that Congress passed a law in 2015 
requiring it to do so. This delay is entirely unacceptable.
    I look forward to hearing the ways in which SBA can improve 
its contracting programs and accelerate the implementation of 
the women small business certification process.
    I am also concerned about SBA's rollout of its 
``certify.sba.gov'' online platform. As of August 2019, SBA has 
spent approximately $27 million on this system which was 
supposed to modernize the certification experience for 8(a) and 
other SBA contracting program participants and offer 
comprehensive service delivery.
    To date, SBA has implemented only limited functionalities 
and it failed to make any progress in enhancing these 
functionalities during the last year. There are complaints of 
unreasonably long help desk delays and significant latent 
defects in this system. Now we are learning that SBA plans to 
develop an entirely separate system to monitor 8(a) 
participants' business development.
    SBA has invested a substantial amount of taxpayers dollars 
in this platform, and I would expect by now to see results from 
this investment. Unfortunately, it appears that SBA has failed 
to implement this platform effectively.
    It is my goal for today's hearing to shed light on what 
specific steps SBA is taking to address this serious finding 
and how SBA intends to deliver a more effective system.
    Another issue that requires this committee's close 
attention is SBA's oversight of its grant programs. Last year, 
OIG identified ``significant systemic deficiencies'' in SBA's 
grant management, including issues regarding the accuracy of 
grant data, ineffective oversight, and inadequate standard 
operating procedures. While progress has been made in this 
area, SBA's oversight of its grant programs remains a 
significant concern.
    Finally, I was pleased to see that SBA has made progress in 
developing methods to disclose and track loan agent activities 
on 7(a) program loans. IG investigations have revealed an 
alarming pattern of fraud by loan agents in the 7(a) program 
involving millions of dollars.
    While I am encouraged by SBA's efforts to implement 
enhanced loan agent disclosure forms and controls over lender 
submissions, it is vital that the IG continue to monitor this 
area closely and identify areas where SBA can continue to 
improve.
    Without a confirmed administrator and even a deputy 
administrator in place to take the reins of the agency, it is 
now more critical than ever to ensure the SBA is operating 
effectively and performing its core goal of reaching and 
assisting entrepreneurs across this country. I am hopeful we 
can work together using the IG's expertise and unique insight 
into the agency to improve the SBA.
    I now would like to yield to the Ranking Member, Mr. 
Chabot, for his opening statement.
    Mr. CHABOT. Thank you, Madam Chair.
    The Small Business Administration's Office of Inspector 
General, or SBA OIG, is required to deter, identify, and 
investigate instances of fraud, waste, and abuse, and 
inefficiencies in the SBA programs and operations. With an 
almost $20 million budget for fiscal year 2018, its audits and 
investigations achieved more than $224 million in monetary 
recoveries and savings. Contracting and loan fraud 
investigations not only recouped federal funds, but also 
resulted in 62 indictments and 43 convictions. We thank you, 
Mr. Ware, for your efforts to protect American taxpayer dollars 
and the integrity of SBA programs.
    In the first half of fiscal year 2019, OIG issued eight 
reports with 30 recommendations to improve the agency's 
programs and operations. Congressional-requested and SBA-
initiated reports produce recommendations that often kick off 
statutory and regulatory relief efforts and reform.
    For example, the audit of the SBA's oversight of the SCORE 
Association issued in April prompted immediate changes within 
the SCORE organization and SBA's Office of Entrepreneurial 
Development. It also informed significant reforms outlined in 
H.R. 4407, the SCORE for Small Business Act of 2019. The SCORE 
Audit and subsequent reform efforts demonstrate the power and 
necessity of unbiased oversight conducted by OIG. We thank you 
for your work to identify and resolve issues in this flagship 
program.
    Since 2001, the OIG has provided a yearly report to 
Congress which outlines the SBA's management challenges and 
recommendations to resolve each challenge. Each challenge 
represents an area in which the agency is vulnerable to waste, 
fraud, and abuse. When compared with the previous years' 
reports, it appears that the SBA has not made sufficient 
progress implementing OIG's recommendations to statutorily 
mandated programs and functions. The SBA's 8(a) business 
development program, lender oversight, IT and human capital 
management have for nearly 2 decades been the SBA's most 
serious management and performance challenges.
    How can we, the Congress, help you to motivate agency 
reform efforts? That is one of the things that we certainly 
want to look into, and we thank you again, Mr. Ware, for your 
leadership at the OIG and commitment to reforming the SBA, and 
I yield back.
    Chairwoman VELAZQUEZ. Thank you, Mr. Chabot. The gentleman 
yields back.
    If committee members have an opening statement prepared, we 
ask that they be submitted for the record.
    Normally, I go over the timing lights but Mr. Ware, you 
have been here so many times I do not think I need to explain. 
You are going to be the only witness here.
    Today, we welcome the Honorable Hannibal ``Mike'' Ware, the 
Inspector General of the SBA. Mr. Ware was sworn in as the 
Inspector General in May 2018 and has been an effective leader 
in his role of rooting out waste, fraud, and abuse in federal 
programs and promoting more efficient operations at SBA which 
encompass more than $100 billion in guaranteed loans and nearly 
$100 billion in federal contracting dollars. He has 28 years of 
experience within the IG community and has received numerous 
awards throughout his career, including several awards from the 
Council of the Inspectors General on Integrity and Efficiency 
as recognition for his significant work in the Inspector 
General community.
    We welcome Mr. Ware, and you are now recognized for 5 
minutes.

STATEMENT OF HANNIBAL ``MIKE'' WARE, INSPECTOR GENERAL, UNITED 
              STATES SMALL BUSINESS ADMINISTRATION

    Mr. WARE. Chairwoman Velazquez, Ranking Member Chabot, and 
distinguished members of the Committee, thank you for inviting 
me to testify before you today and for your continued support 
of the Office of the Inspector General (OIG). I am always proud 
to represent the dedicated men and women of OIG and to speak to 
you about their important work.
    Last week, my office released its report on the most 
serious management and performance challenges facing the Small 
Business Administration in fiscal year 2020. The report 
identifies eight challenges that span SBA's core programs, 
otherwise known as the three Cs: capital, contracting, and 
counseling. The report also identified a challenge in the area 
of agency management principally related to information 
technology controls.
    I look forward to answering questions and discussing these 
challenge areas with you this morning, but first, I believe it 
is important to provide you with context of how the challenges 
are identified and their importance in the framework of 
providing oversight to SBA.
    Given the identification of Top Management Challenges spans 
nearly 20 years, there is a robust dialogue surrounding the 
challenges and a record of corrective actions taken and the 
persistence of certain challenges.
    Since arriving at OIG and taking the helm, I have committed 
to a collaborative approach for identifying these challenges. I 
had my first meeting with then Administrator McMahon. I shared 
my vision of the challenges being identified in a manner that 
represents a shared perspective. Rest assured, at the end of 
this process, OIG independently prepares our report and calls 
the balls and strikes. Consensus is not required to include an 
issue on our list. That said, collaboration allows OIG to round 
out its view and possibly learn what we do not know from SBA's 
leadership perspective of concerns within the programs.
    As I sit here today, I can say confidently that SBA program 
officials do not agree with every assessment of their progress 
in addressing certain challenges. For us, it is a matter of 
factual accuracy and building a common understanding of what we 
are seeing, which is why I value the opportunity to speak with 
you today.
    To operationalize the challenges report, I believe we have 
an obligation to focus on work in these challenges areas to 
provide recommendations for corrective action to resolve the 
root causes. For some areas, challenges will always persist. 
For example, it is undeniable that responding to disasters will 
always be a challenge simply because not every variable of a 
specific disaster can be known or planned for in advance. 
However, SBA can learn from our oversight work in this area and 
be better positioned for the next disaster, ensuring assistance 
is provided timely and efficiently and ensuring controls exist 
to provide assurance that assistance is going to eligible 
disaster victims.
    I am pleased to share with you that SBA leadership also 
operationalizes the Management Challenges Report. 
Implementation of corrective actions is included in executive 
performance agreements meaning senior leaders within SBA are 
held accountable for taking concrete steps to address the 
recommendations within the respective challenges. To this end, 
OIG's progress assessments which are included within the report 
are vital benchmarks intended to achieve results. The scoring 
system is readily discernable by prescribed colors and 
directional arrow representing the progress trends.
    Within each management challenge is a series of recommended 
actions to enhance the effectiveness of agency programs and 
operations. Each recommended action is assigned a color score 
to indicate its status. The scores are as follows: green for 
``implemented,'' yellow for ``substantial progress,'' orange 
for ``limited progress,'' and red for ``no progress.''
    As you can tell, the top Management Challenges Report is an 
important component of our oversight framework. The report and 
the associated processes have led to serious management and 
performance challenges being addressed by the agency leading to 
their removal from the list.
    Most importantly, the effort places a continued emphasis on 
delivering services to small businesses and disaster victims 
effectively and efficiently, a goal for which there is 
universal agreement.
    Thank you again for the opportunity to speak to you today, 
and I look forward to your questions.
    Chairwoman VELAZQUEZ. Thank you, Mr. Ware.
    I am very pleased that you did not use the 5 minutes. Now 
we will have an opportunity to expand on your presentation.
    Your office has repeatedly recommended that the SBA 
implement a Women Owned Small Business Certification program as 
required under the 2015 NDAA. However, it has been almost 4 
years since that law was enacted and SBA has not implemented a 
certification program. I am also really concerned that a June 
2018 OIG audit found that sole source contracts totaling $52 
million were awarded to potentially ineligible firms that self-
certify as women-owned businesses.
    Can you please explain to us, what is the main cause for 
SBA not having implemented the certification as required by the 
2015 NDAA?
    Mr. WARE. Thank you. Thank you for the question.
    And that question, I am actually glad I received it because 
it gives me an opportunity to talk about the folks in our 
office that just yesterday received a CIGIE award for 
excellence for that very same audit that you just referenced.
    I will just tell you where they are currently so you know. 
At least they have a proposed rule. They did that in May of 
2019 to amend the WOSB regulations, rules and regulations. So, 
I mean, they are way behind the curve but they are making 
movement in this area. And some of the reasons that we have 
gotten is that, well, you remember, like you mentioned in your 
opening, certify.sba.gov was supposed to be the end all, answer 
all, everything all, and it just has not been. So they were 
under the impression that this would solve many of their issues 
and it has failed to do so. Right now it is just serving as a 
repository.
    Chairwoman VELAZQUEZ. Are you confident that SBA will be on 
track to implement the final rule by 2020?
    Mr. WARE. They have assured us that they will but, I mean, 
it has been quite a long time. At this point I am past 
assurances. I would just like to see it done.
    Chairwoman VELAZQUEZ. Let's go to certify.sba.gov. SBA is 
supposed to allow users to manage their 8(a) program 
certification. They have spent $27 million on this system, but 
according to your report, SBA has implemented only limited 
functionalities, and it looks like for the last year they have 
not made any progress. Why is it taking this long? My other 
question is, in your opinion, do you think after spending $27 
million, SBA might be abandoning this platform?
    Mr. WARE. SBA has basically notified that they are indeed 
looking to abandon the platform. It has not been able to 
deliver in a way that it thought it would.
    Chairwoman VELAZQUEZ. What is the main reason for that?
    Mr. WARE. That is the million dollar question. There is no 
real evidence that they have put forth other than at every turn 
it has not worked. Right now it is just functioning as a 
repository. When they talk about the functions, limited 
functions, meaning that you can upload the documents, that is 
the limited functions for $27 million.
    Chairwoman VELAZQUEZ. After spending $27 million of 
taxpayers' money this will be the answer to all of the delays 
that they were facing? My question is, is the fact that we do 
not have an administrator in place, or a deputy administrator 
in place playing a role in their delays?
    Mr. WARE. Well, I could say this. It is clear that proper 
leadership is essential for implementing a program of this 
kind. I would say that Maria Roat and the OC, Office of OCIO, 
has done a significantly good job in terms of moving on many of 
the recommendations. They have received awards and they are 
looking into it, but clearly, the proper level of leadership 
needs to be in place, even to make a determination as to 
whether it is time to actually walk away from this or continue 
to throw good money after bad.
    Chairwoman VELAZQUEZ. In the Caribbean, people are still 
afraid that another storm, or hurricane, could come their way. 
The season will be over by the end of November. Based on your 
audit and your analysis, can you tell us that you feel 
confident that SBA's, Disaster Relief Program is ready to act? 
Do they have all of the controls and preparedness in place?
    Mr. WARE. I can say this, definitely, as you know, I 
definitely sympathize coming from St. Thomas with my mother 
still living there, and my mother is still basically not being 
able to get over the trauma that the last ones caused. But I 
can say this, that the Office of Disaster Assistance has made 
significant strides in terms of their readiness. They are more 
ready now than they have ever been. It is just that the 
uncertainty of what will be faced with a storm always gives me 
some hesitance in talking about this, but I do know that in 
implementing our recommendations and in working with our 
office, they have a more trained work force than they have ever 
had before. They were able to ramp up on a level that they 
never had before with the last three major storms, and because 
of that I would say that they have never been in a better 
position.
    Chairwoman VELAZQUEZ. Does that preparedness correspond to 
taking into account a Category 1 or a Category 5?
    Mr. WARE. Well, you know that we put out these reports that 
dealt with Harvey, Irma, and Maria, and they were Cat 5s, and 
bigger then. It is just that we do not have something bigger.
    Chairwoman VELAZQUEZ. Thank you. Thank you.
    The Ranking Member is recognized for 5 minutes.
    Mr. CHABOT. Thank you, Madam Chair.
    Again, thank you for being here, Mr. Ware.
    As you know, a number of your recommendations stem from 
longstanding challenges at the SBA. In some cases, those 
challenges were identified more than a decade ago. Why has it 
take so long for the SBA to address these challenges? It is 
pretty frustrating. I know the Chair is frustrated. I am 
frustrated. You know, what is taking them so long?
    Mr. WARE. So let me explain.
    You know I have been in the IG community, February will 
make 30 years. And so I have been from the first time that the 
IGs had to put forward this report, I have been working on 
them. Some of these challenges will never go away because it is 
the nature of the complexity of the programs that are run 
across the Federal Government. For example, when I was at 
Interior, if you look at Interior's report, you would see that, 
well, insular areas is always going to be a challenge. And then 
affairs would be a challenge. Energy will be a challenge. 
Climate will be a challenge. These are the things that they are 
faced with. It is the same with SBA. So anything that falls 
within those three Cs. So you are going to have challenges in 
the credit programs because you are talking $120 billion in 
guaranteed loans in their portfolio to oversee. So it will 
always be a challenge. Disaster will always be a challenge. 
Their contracting programs will always be a challenge.
    What we offer in this document is that our work is 
informing how to challenge shifts and moves to ensure that they 
are most efficient in our moving of these areas. As a matter of 
fact, it is those challenges that inform our work, and vice 
versa, the work informs the challenge.
    Mr. CHABOT. Okay. Thank you.
    Are there areas where the SBA has taken concrete steps to 
improve past performance? And if so, are there lessons that we, 
or more importantly that they should learn from those steps, 
where they improved things in the past to address some of these 
current challenges?
    Mr. WARE. Right. To be fair, SBA has made significant 
strides over the past, at least the past 3 years that I have 
been at SBA. They have made significant strides in just about 
every area. We have been able to remove one relative to human 
capital. And again, human capital this year, they have made 
significant strides. Also, in their IT challenge they have made 
significant strides. And we argue with them back and forth, 
well, why can we not be green? And you cannot be green because 
we found this, we found that. We recognize that you have made 
significant progress but works till remains to be done in these 
areas.
    Mr. CHABOT. Okay. Could you briefly maybe expand a little 
bit upon the capital improvement or what was the term you used?
    Mr. WARE. Human capital.
    Mr. CHABOT. Yeah, human capital improvements that they 
actually made?
    Mr. WARE. So they were lacking standard operating 
procedures across the board. They just did not have them. And 
human capital has been identified by GAO, for example, 
government-wide as one of the major challenges for probably the 
past, I do not know, 20 years. And they have produced or 
refreshed 11 different SOPs to address their challenges, which 
is pretty significant.
    In addition, we are not the only ones that oversee their 
human capital, of course. The Office of Personnel Management 
does so as well. And they received a pretty positive for the 
most part report that also had here are some areas for 
improvement. But one of those is how we replace the over, I 
think they have 60 percent can retire by 2020. How are you 
going to fill that skill gap? How are you going to do that? And 
it is even a higher percentage if you move to 15 and higher. So 
these are the challenges that they still have to work on.
    Mr. CHABOT. Yeah, we certainly need to keep an eye on that.
    Broadly speaking, is there anything that either this 
Committee or Congress in general could do to help your office 
to more effectively conduct investigations and/or oversight of 
the SBA?
    Mr. WARE. Broadly speaking, I was going to say you have no 
idea, but you do have an idea how critical it is that we have 
these kind of hearings where you conduct oversight with us. The 
way that you have worked with our office in terms of the new 
appropriation authorizations, the new authorization language, 
those put a significant amount of sunlight on these programs 
and lead to change. I mean, instant change. The work that we 
have done together relative to the grant programs have fixed a 
lot of the issues that we brought forward in an incredibly 
short time.
    Mr. CHABOT. That is good to hear, so I want to commend the 
Chair and commend this Committee in a bipartisan way because we 
really do work in a bipartisan manner on this Committee. So it 
sounds like we are doing something right. So glad to hear it.
    Thank you, and I yield back.
    Chairwoman VELAZQUEZ. Thank you. The gentleman yields back.
    Now we recognize the gentleman from Colorado, Mr. Crow, 
Chairman of the Subcommittee on Innovation and Workforce 
Development for 5 minutes.
    Mr. CROW. Thank you, Madam Chair.
    And Mr. Ware, thank you for being here today and for your 
office's work to continue to improve the SBA. We appreciate 
your professionalism and hard work.
    As you are probably aware, Accenture recently released a 
report showing that 43 percent of cyberattacks are aimed at 
small businesses costing on average $200,000, with 60 percent 
of these small businesses going out of business within 6 months 
of a breach or attack. And in your report you mention that 
during this fiscal year, the IG made 35 new recommendations in 
IT security control areas and that overall there were 44 
recommendations that were resolved, corrective actions. But you 
also mentioned that there are other critical issue areas that 
need to be addressed.
    Can you mention the top one or two other areas that keep 
you awake at night?
    Mr. WARE. Well, for us, of course, the information that you 
just said, that is on the board scrolling on every floor at SBA 
relative to the number. But one of the things is how they are 
dealing--how SBA, sorry, deals with their infrastructure, the 
IT infrastructure. And we spoke about certify.sba.gov and the 
challenges that they have had with that, and we have continued 
to push them on the way that they are planning these 
investments to replace these legacy systems. So that would be 
one.
    And of course, the security of the documents, I mean, of 
everything that they receive from the public relative to small 
business, it is critical that they have that well done.
    We contract with KPMG to take a look at that, to make sure 
that they are straight with that. They have grown in terms of 
improvements in leaps and bounds in that areas but it only 
takes one. They have just recently received awards. Maria Roat 
was awarded for her work in FITARA. So in terms of security, 
they have really come a long way.
    Mr. CHABOT. Okay. Thank you.
    Madam Chair, I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    The gentleman from Minnesota, Mr. Stauber, Ranking Member 
of the Subcommittee on Contracting and Infrastructure is 
recognized for 5 minutes.
    Mr. STAUBER. Thank you, Madam Chair, and Ranking Member 
Chabot for holding this important meeting. And Mr. Ware, thanks 
for your professional testimony.
    Mr. WARE. Thank you.
    Mr. STAUBER. I just have a couple of comments here.
    You know, as the ranking of the Subcommittee on Contracting 
and Infrastructure, I have heard about some of the issues 
highlighted in the 2020 IG reports firsthand during the 
hearings that Chairman Golden and I have held. Of particular 
note, we held a hearing about the Women-Owned Small Business 
Contracting Program, and it seems that the SBA enacted a sole-
source authority without implementing a front-end certification 
program or eradicating the self-certification option. This has 
only exacerbated fraudulent behavior within the program 
specifically. $52 million dollars were awarded to potentially 
ineligible firms and ended up hurting our women small business 
owners who truly need assistance procuring Federal contracts.
    Knowing that this is not unique to the women-owned small 
business programs, Mr. Ware, could you provide an estimate for 
how many Federal contracts are awarded to ineligible firms?
    Mr. WARE. To provide an estimate would be tough but I know 
what our work has informed, and our work has informed across 
these programs that is a significant amount, and that is a 
significant part of our investigations portfolio in terms of 
all the arrests and the convictions that we have gotten.
    And I will tell you how troubling this is to me on a 
personal level. I was recently at a volleyball game and I 
overheard two people talking about how easy it is to get into 
these small business programs. About how one person had said 
they had started three of these businesses and might need to 
get out before it is too late. They do not know who they are 
sitting next to; right? So these are guys talking about it. It 
is extremely troubling.
    So when we write about these things and we are simply 
asking for more assurances up front that we are reaching the 
people who desperately need these services, it is like that. It 
is significant. I could say that.
    Mr. STAUBER. I can say, Mr. Ware, if you were at a hockey 
game in Minnesota, you would not have heard those comments.
    So Mr. Ware, what do you think is the biggest factor 
contributing to fraud in the Federal procurement place?
    Mr. WARE. In the Federal procurement space, the biggest 
instance is the relative ease that just about anyone can get 
into, and it is an awful lot of money. It is a big pool.
    Mr. STAUBER. Okay. So what remedies can we put in place to 
reduce the fraudulent activity?
    Mr. WARE. These are the recommendations we have been trying 
to get implemented for years and that they are working with us 
on. We need up front, internal controls that give assurances to 
SBA that the right people are getting this. So no more of that 
self-certification. The proper documents must be in place 
before you are able to receive assistance from SBA.
    Mr. STAUBER. You know, Mr. Ware, you are exactly right. 
With your experience I was expecting that answer.
    I will say this, that you know, you said we have been 
working on it for years. We know that small business is the 
engine of our economy, and so from outside this city, when you 
say we have been working on it for years, what do you think 
small businesses across this Nation, I mean, they are 
frustrated with this. And so I appreciate your honesty that you 
have been working on it, or we have been working on it for 
years. I think that we need to speed this up because it is 
affecting Main Street America.
    And I will say this, that you had mentioned a couple of 
things and you had mentioned some big challenges. You used the 
word ``challenge.'' Great word. I look at it as an opportunity 
for us. An opportunity to change. And I think you are in the 
right place to help us out with your experience and your 
professionalism.
    Mr. WARE. Thank you.
    Mr. STAUBER. So I look at it as an opportunity to work with 
us and actually make meaningful legislation today or as soon as 
practical because when you get outside these walls of Congress, 
when the statement is made we have been working on this for 
years, that is extremely frustrating for American small 
business owners, both men and women. So I think that we have an 
opportunity I think to work on this and take your report and 
start making progress, immediate progress on these concerns 
that we all have.
    But I really appreciate your testimony, your 
professionalism, and Madam Chair. And I yield back.
    Mr. WARE. Thank you.
    Chairwoman VELAZQUEZ. Thank you. The gentleman yields back.
    Now we recognize the gentlelady from California, Ms. Chu, 
Chairwoman of the Subcommittee on Investigations, Oversight, 
and Regulations, for 5 minutes.
    Ms. CHU. Thank you.
    Mr. Ware, first I would like to ask about disasters and 
then about human capital management.
    Disasters are on my mind. I represent a district in 
Southern California, and for the last few days we have had a 
terrible wildfire where 100,000 people had to be evacuated, 
including our Congress member Bob Sherman. And this is on top 
of the wildfires that we had throughout California, Northern 
California and Central California.
    So you outline in your report that the SBA established the 
Express Bridge Loan Pilot Program in October 2017 to quickly 
extend up to $25,000 to small businesses and presidentially 
declared disaster areas. The pilot program launched 2 years ago 
but so far has resulted in only two loans despite the fact that 
there were 126 major disaster declarations and 33 emergency 
declarations since October 2017.
    So can you tell us how many small businesses applied for 
loans under this program and why SBA has failed to effectively 
administer the pilot?
    Mr. WARE. Thank you.
    I do not have the information relative to how many applied 
for the program. I can definitely and will certainly get that 
back to you.
    But according to SBA, their lenders have many different 
ways to get this money to disaster victims and that they are 
not partnering with them at the rate that was anticipated to 
get these loans out. They say they just do not have the 
lenders. That is what they have said.
    Ms. CHU. And what could be done to improve the situation?
    Mr. WARE. I think that we really need to take a look at, 
well, they need to take a look with the overseers with whether 
this is the best way to achieve that outcome. Or if there are 
other things already in place that are meeting the needs of the 
people. I really do. Otherwise, there is no other way to know.
    Ms. CHU. Well, this seems like a high priority so I hope 
that you can highlight it even more as far as your challenges.
    But there is also the issue of proper training. You talked 
about SBA's progress in providing proper training but you talk 
about it in the context of severe hurricanes. And this is for 
the thousands of reserve staff that it brings on for major 
disasters. But can you talk about your response to wildfire 
disasters and the training system? Is it relevant to wildfires 
or is there any kind of specialist training for that?
    Mr. WARE. My understanding is that each disaster is treated 
the same relative to getting the applications in, processing 
them as quickly as possible, and from my view, making sure that 
the proper controls are in place before that money goes out. 
But it is the same. I do not believe that they have specific 
training for whether it is a wildfire or it is a hurricane. 
They treat the disasters pretty much the same. The metrics are 
the same.
    Ms. CHU. Okay. So now let me ask a question about human 
capital management. Your report found that SBA made substantial 
progress in addressing human capital management but this 
Committee has received reports of numerous vacancies within 
SBA, and it seems particularly problematic in the Office of 
Field Operations where there are potentially 100 vacancies and 
then there are vacancies in the Office of Investment and 
Innovation.
    So Mr. Ware, did OIG consider the number of vacancies at 
SBA in making its findings on SBA's human capital management?
    Mr. WARE. So the findings on the Top Management Challenges 
Report are much more general in terms of what the challenge is. 
So we specifically entered that only relative to what they have 
in place to address a challenge that is as you have described. 
You have a lot of vacancies. You are going to have a lot of 
turnover due to retirement. What do you have in place in terms 
of a strategy to mitigate these issues? That we looked into. 
And they have actually, like I said, 11 new human capital SOPs, 
some that deal with that. And this is why we gave them the mark 
that they got in the area. We have not, as part of this, gone 
into a specific and detailed review of each one of the sections 
as of yet.
    Ms. CHU. It just seems like 100 vacancies is very, very 
problematic and, you know, requires so much more intervention.
    Mr. WARE. Right. So our normal oversight work would address 
something like the 100 vacancies. The Top Management Challenges 
Report just talks about the challenge that they have in 
addressing that.
    Ms. CHU. Thank you. I yield back.
    Chairwoman VELAZQUEZ. The gentlelady yields back.
    Now we recognize the gentleman from Pennsylvania, Mr. 
Evans, for 5 minutes. He is the Committee Vice Chair.
    Mr. EVANS. Thank you, Madam Chairperson. And thank you for 
this hearing.
    Mr. Ware, according to the OIG report, the SBA currently 
has no system to assist program officials in monitoring the 
8(a) participant business development to assist the 
effectiveness of the program. To address this, the SBA has 
formed a tiger team to develop solutions in fiscal 2020.
    Mr. Ware, what is a tiger team, and how much progress has 
this team made in developing solutions to this program?
    Mr. WARE. Right. The tiger team is they establish, they are 
a group of employees that they have identified who could assist 
in terms of making sure their system works the way it does. We 
have not yet assessed where they are on that. That is not what 
the Top Management Challenges does. So we have not gotten to 
that level of our work yet in that area.
    Mr. EVANS. Okay. The 8(a) program has seemingly declined in 
the number of participants in recent years going from 7,000 in 
2010 to about 4,500 participants in 2019.
    Mr. Ware, do you believe the application process is a 
source of decline and participation in the 8(a) program, and is 
the SBA properly addressing the decline?
    Mr. WARE. It is difficult to tell. The work that we have 
done has not shown that that is the reason. As a matter of 
fact, they have streamlined the process. So the streamlining of 
the process was said to be how they would address the root 
cause of the numbers going down. So I do not believe that that 
is the process and I our work has not informed yet as to what 
the cause of the numbers declining is but I do not believe it 
is definitely not because of any additional controls they have 
put in place. As a matter of fact, they have relaxed the 
controls.
    Mr. EVANS. The Chairwoman sort of mentioned this when she 
was talking. The report states SBA has currently spent $27 
million on the online certification process, the 8(a) program 
at 27 to implement the online process for the women-owned. Is 
this same 27 million, does this cost seem excessive for 
developing an online certification process?
    Mr. WARE. That is a very interesting question. So, well, 
kind of a deep question, too. Thank you.
    Excessive is not something that I would use. It is what is 
necessary to ensure that they are providing efficient and 
effective services to small business owners and that the proper 
controls are in place to ensure it is going to the right 
recipients. And that they are able to measure progress in a way 
that informs Congress and informs the public as to whether or 
not their programs are successful. So I do not know what cost I 
would put to that but I would say it is excessive for a program 
that has not worked.
    Mr. EVANS. So what would you say to us who represent the 
taxpayers you are describing then? How would you say that then?
    Mr. WARE. I would say that SBA has some work to do to 
either make a decision as to whether they are going to throw 
good money after bad or they are going to switch and pivot to a 
system that provides us the assurances I just laid out.
    Mr. EVANS. I yield back the balance of my time, Madam 
Chairperson.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Mr. Balderson, the member from Ohio who is the Ranking 
Member of the Subcommittee on Innovation and Workforce 
Development is now recognized.
    Mr. BALDERSON. Thank you, Madam Chairwoman.
    Holy cow, bam. Here we go.
    Good morning, Mr. Ware, and thank you for being here.
    I just, you know, I have got a little bit of update on what 
the conversation has been here this morning and what we have 
been talking about during the two to three Committee piece 
today, so just kind of bouncing back and forth. But my great 
policy small businessman has been updating me.
    You know, we are talking about the disasters you are 
speaking of. In your testimony, you mention the four core 
strategic goals for the Small Business Administration. Of these 
you state that the SBA should be working to strengthen their 
ability to serve small businesses. Unfortunately, I have been 
alarmed to routinely hear from constituents on my Small 
Business Advisory Panel that they do not feel like the SBA is 
prioritizing them. Specifically, my constituents have mentioned 
how rural small businesses seem to be forgotten about or 
underserved.
    Your report pinpoints human capital as a major challenge 
facing the SBA. More specifically you write, ``The office is 
currently planning to assess the effectiveness of SBA's actions 
to mitigate its workforce challenge risk.'' And I know that 
this has been a focus today. But can you kind of turn it around 
a little bit for the rural piece also?
    Mr. WARE. Right. Regarding the rural piece, this is a 
discussion that we have just begun having in our office because 
we are hearing the same things. We hear from our hotline. We 
hear from your constituents about these issues, so the question 
comes up. I mean, are they really looking at the rural areas? 
Our work to date has not informed that but I assure you that 
our work going forward will. It is a discussion that we 
recently had within our office.
    Mr. BALDERSON. Okay. That is good. And my office, and 
including myself, would be happy to help with you addressing 
those issues because I think it is a very, very important piece 
and I know that you understand it is, too, but I think we need 
to take some action on it.
    So I appreciate it and thank you very much, Madam Chair.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    The Chair recognizes the gentlelady from Kansas, Ms. 
Davids, for 5 minutes.
    Ms. DAVIDS. Thank you, Chairwoman.
    And thank you for being here today to talk to us about this 
report on the SBA.
    Last month, this Committee held a management review hearing 
on the SBIC program and had many concerns and questions about 
the mismanagement of the program and the decrease in issued 
licenses, the issues around some of the requirements related to 
trainings on the regs. The Senate Small Business Committee held 
a similar hearing earlier in the year as well.
    Can you tell me why the SBIC program issues were not 
addressed in the report that you put together?
    In the Top Management Challenges Report?
    Uh-huh.
    Mr. WARE. It was not specifically addressed. We have not 
done work on SBICs in a minute. The SBICs are the next up for 
2020 in terms of our reports and our work that will inform it.
    So our work that we are doing are informing the challenges, 
and this goes over the 40-year existence of the office in terms 
of the depth of knowledge that we have in these programs. 
Strangely enough, when the IG's office was first set up as one 
of the original 12, SBICs was their primary focus and primary 
work more than anything else before it was turned over to the 
agency. But that is the reason why it was not addressed in this 
body, in this version of the Top Management Challenges.
    Ms. DAVIDS. Okay. I just would, I guess when I was looking 
at the purpose of this specific report that gets done it 
includes what the report considers the most serious management 
and performance challenges facing the agency. And based on the 
testimony that we heard that we heard last month when we were 
looking at the SBIC program from the current acting director of 
the program, I would definitely say that there are serious 
challenges and management challenges there and would just 
encourage you to please have a look at that. And I think our 
office is probably going to be reaching out as well.
    Mr. WARE. It is up next in 2020.
    Ms. DAVIDS. Okay.
    Mr. WARE. Mm-hmm.
    Ms. DAVIDS. So I know that the IG report does delve into 
multiple issues around the 8(a) program and we have heard a 
little bit about the oversight capability and trying to ensure 
that ineligible firms are not participating in that program.
    Can you please talk to me, us, a little bit about how we 
make sure that we not only increase the number of 8(a) 
certified programs that are having access to the contracts, but 
also how we increase the accuracy of the reporting of it?
    Mr. WARE. All right. So thanks for that question.
    I will start with the accuracy of the reporting, mainly 
because our work is informed on the accuracy of the reporting. 
It has to do with their systems. And I have to talk a little 
bit more about systems because folks keep thinking that this 
technology is the end all, be all. So whether it is certified 
SBA, whatever you come up with, it is just technology that is 
making what should be a good foundational system easier to use. 
So we need to look into how those systems are put in place, 
especially in relation to the human side of things that are 
actually working on these systems.
    So when you have a system that is a repository, it is like 
anything else. It is garbage in, garbage out. And on top of it, 
some of these systems lose information. So that is the 
challenge in terms of being accurate with the reporting, a 
significant challenge that SBA has. But that is where it stems 
from. And we are challenging SBA to take a look at system more 
holistically than just an IT fix.
    Ms. DAVIDS. And I am just curious because I feel like there 
are a couple of threads in the report here. Do you think that 
some of the underlying foundational issues stem from the need 
for the effective human capital strategies? And we are running 
out of time, but perhaps you could submit a little bit more 
information about some specific steps that we need to take to 
increase the human capital.
    Mr. WARE. Thank you.
    Ms. DAVIDS. Thank you. I yield back.
    Chairwoman VELAZQUEZ. The gentlelady yields back.
    The gentleman from Maine, Mr. Golden, Chairman of the 
Subcommittee on Contracting and Infrastructure, is recognized 
for 5 minutes.
    Mr. GOLDEN. Thank you, Madam Chair.
    Inspector General Ware, thank you for being with us. And I 
hate to continue to focus on 8(a) but I think that your report 
here did point out that it is one of two areas where we did not 
see the kind of progress that we saw elsewhere in fiscal year 
2019. And so I think it is important to keep talking about 
this, particularly as the Chair of the Subcommittee. So I do 
not think it is harmful to give you more and more opportunities 
to talk about what we can do about 8(a).
    My good friend from Minnesota, the Ranking Member, 
Congressman Stauber talked about the women-owned business 
issues as well with some of the self-certification and other 
things, so I just want to keep giving you some opportunities to 
tell us what we should be looking into and prioritizing with 
our oversight, because I think that there is going to be some 
significant focus on certification in the Subcommittee going 
forward.
    So knowing that, what would you have us focus on? And I do 
have another question.
    Mr. WARE. Sure. I will be quick on this one so you have 
time.
    We made very specific recommendations to SBA on how best to 
address that. And one of them has to do with, I will read it, 
``Implement controls so that ineligible firms in the 8(a) 
program during the continuing eligibility reviews''--because 
that is one of the areas where we have a major problem with--
''and effectively address complaints received regarding 8(a) 
firms and remove ineligible firms from the 8(a) program timely.
    So we have challenged them to meet this recommendation, and 
right now they have been moving kind of slow. They said that 
their revisions to the SOP, they have an expected publication 
of March of 2020. So, but the SOP does not really cover it all, 
and we are still working with them. When I said earlier that 
they do not necessarily agree with everything, this is one of 
those areas, so we have been in, my team and their leadership 
within Economic Development have been in the back and forth, 
but that is one of the principal ways.
    Mr. GOLDEN. Thank you.
    My colleagues on the Committee have pointed out that a 
prior OIG audit had found that SBA failed to fully document 
whether 30 out of 48 certified firms that you reviewed were 
eligible for the 8(a) program. Those are some pretty bad 
numbers in my opinion. I do not know if you have seen any 
improvement since then in this regard or if this was just a 
particularly bad audit. But can you explain how this failure to 
properly document firms' eligibility for the program impacts 
your ability to investigate cases of fraud against SBA? Because 
I do think an important aspect of your work is the ability to 
fully investigate and root out fraud.
    Mr. WARE. I am glad that you brought that up because it 
brings me to a soapbox issue for me. And hopefully, I do not 
get on a soapbox too much.
    But it harms us in terms of our ability not to investigate 
but to get a conviction. And what it does is because they did 
not have the documentation in the files but in many cases, and 
this is documented, defense attorneys are able to say my client 
gave everything that they asked for. They either had it right 
in front of them, they did not put it in the files or whatever 
it is, but this is our evidence that we have given it. And the 
court has ruled that SBA had it and still allowed them to 
continue in the program, or to get in and that the burden was 
on the agency. And we have been unable to obtain convictions 
because of this. This is something that we have been working 
with the agency in terms of drilling down on the importance of 
making sure that that action is taken on the documentation. And 
they are moving forward on a lack of documentation. When we 
said lack of documentation, they were able to remedy the 
majority of the 30 by obtaining the documentation. But without 
the documentation, the people should not have been eligible. 
The documentation had to have come first. Somebody had to 
review that.
    Mr. GOLDEN. Yeah. Because you have mentioned I think 
several times that at the very least like they have this 
platform where they can upload the documents but we actually 
need to cross our T's, dot our I's, and demand the documents.
    Mr. WARE. Right. Well, that is all it is, is just upload.
    Mr. GOLDEN. Yeah.
    Mr. WARE. Right.
    Mr. GOLDEN. All right. Thank you. I appreciate it.
    Mr. WARE. Sure.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    The gentleman, Mr. Hern, from Oklahoma, Ranking Member of 
the Subcommittee on Economic Growth, Tax, and Capital Access, 
is recognized for 5 minutes.
    Mr. HERN. Thank you, Madam Chairwoman, Ranking Member 
Chabot, and Mr. Ware, thank you for being here today.
    As a small business owner and businessman for the past 34 
years, I know firsthand how valuable the Small Business 
Administration's aid can be. However, I am also aware that the 
SBA has had wasteful expenditures and mismanaged programs in 
the past. I think it is part of the bureaucracy, what happens 
when you get too big, which can be a big determinant to this 
aid, and therefore, cause damage to small businesses in 
America.
    As a member of Congress who came to Washington help 
reconcile waste and to eradicate fraudulent abuses of 
government programs, this is extraordinarily concerning to me. 
Because of this, I am fully supportive of the SBA's Office of 
Inspector General and the work they do to improve the integrity 
and performance and accountability of the SBA. Every program 
needs that and taxpayers should demand it.
    So my first question is, as you know, the 7(a) program is 
the SBA's flagship program and it helps to be a vital source of 
capital access for thousands of small businesses, and this 
program also happens to be under the jurisdiction of the 
Subcommittee for which I am the Ranking Member.
    In April, as part of our Subcommittee work, we held a 
hearing on the SBA's 7(a) budget proposal and impact to fee 
structures changes, and in this hearing we reviewed the SBA's 
concerning request for a $99 million taxpayer provided subsidy 
to the 7(a) program which has traditionally never received 
appropriations from Congress. The Chairwoman was adamant that 
we had accountability for this, and so it is furthering my 
concerns with the 7(a) program. In your fiscal year 2019 high-
risk 7(a) loan review you found noncompliance in five of the 
eight loans that were studied.
    Why has the SBA not fully addressed the material 
deficiencies that you highlighted? And do you think this 
noncompliance is part of the reason the SBA is asking for a $99 
million subsidy from the American taxpayers?
    Mr. WARE. Thank you.
    I am not certain if the noncompliance is part of it. I can 
tell you what our work has informed. And our work has informed 
that we are catching things when we go in as an audit entity 
that they should have caught. What we are reviewing in that 
report that you reference is work that they already did. They 
already paid out the guarantee. They already did all their 
assurances. And we are coming in later, which at times is 
problematic to the banks and everything else because we are now 
saying you owe this money. You did not do what you were 
supposed to do. But we are coming in later and seeing glaring 
things that should have been found if the proper level of 
review and scrutiny was taken by the agency.
    Mr. HERN. Mr. Ware, if I may interject, as that testimony--
obviously, you were not here, but that testimony and that quote 
``need for the $99 million'' was based on historical problems 
and then forecasting those forward. And if we kept doing the 
same bad behaviors, then we were going to need $99 million. 
Now, the Chairwoman, again, I am going to go back and give her 
a lot of credit in saying, do not come back here and ask for 
that again until you have cleaned up your act. And we have not 
seen them back, so that must mean their act has not been 
cleaned up. So I appreciate what you are saying, but historical 
precedence, if you are making bad decisions and having a 
default rate that you should not be having, that is setting the 
tone and the precedent for the trend line to request this 
appropriation from the taxpayer. And so that is very 
problematic.
    And so judicially, our Full Committee had a hearing in 
September regarding the SBA-led initiative, the SBIC program, 
another concern that we all have. Through that hearing, this 
Committee heard about significant delays coming from the Office 
of Investment and Innovation as it pertains to SBIC licenses, 
something else that is very concerning. I mean, ridiculous. I 
think it was a $1.8 million budget to service 40 loans as I 
recall. If we could broadcast this in lieu of impeachment 
conversations there would be an uprising among the taxpayers 
about the wasteful spending that is going on in this program 
right now.
    Has your office heard about these delays? And will your 
office investigate this matter?
    Mr. WARE. We have heard about the delays, and an audit of 
the SBIC program will be conducted in the next cycle. So which 
starts very soon. So in our 2020 cycle. It is something that we 
met about, particularly after reviewing the testimony on SBIC 
hearings. So it is next up.
    Mr. HERN. Well, again, it is very troubling to see how 
little had been done for the budget because really, the only 
amount that the person that was testifying, the director of 
that particular area could attest to was how much they had 
spent for his budget. Other than that he could not recall. He 
was dodging all of the questions that both sides of the aisle 
had for him. So it was very troubling.
    And, again, I thank you so much for what you are doing and 
I think, again, the taxpayers should demand full 
accountability, and they are. We need to have more of these 
hearings and oversight on a lot of things we are doing. So 
thank you so much.
    I yield back.
    Mr. WARE. Thank you very much.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    The gentlelady, Ms. Finkenauer, the Chairwoman of the 
Subcommittee on Rural Development, Agriculture, Trade, and 
Entrepreneurship from Iowa is recognized for 5 minutes.
    Ms. FINKENAUER. Well, thank you, Madam Chair.
    And thank you so much, Mr. Ware, for being here again. It 
is good to see you. And I know as Inspector General, you are 
absolutely key to helping us identify wasteful spending, weed 
out fraud, and make sure that agencies run efficiently and 
effectively like they should.
    As members of this Committee, it is part of our job making 
sure that the Small Business Administration is working like it 
should. And obviously, the mission of the Small Business 
Administration and this Committee is to strengthen our economy 
through our small businesses and every program and process at 
the Small Business Administration should not only support that 
mission, obviously, but also be a good use of taxpayer dollars.
    And in your report, I know this has been touched on but I 
want to just again bring it up because it is really important. 
You mentioned an issue with the Women-Owned Small Business 
Federal Contracting Program, and I am concerned that this 
program has been left open to fraud and abuse from what we have 
seen. Currently, Federal contracts can be awarded to women-
owned small businesses without competition. However, the law 
requires that businesses' eligibility must be certified by a 
third party such as a Federal agency, a state government, SBA's 
administrator, or a national certifying entity approved by the 
administrator. But SBA has gone ahead with awarding these 
contracts but never set up a certification program. As a 
result, we now know around $52 million has been awarded to 
firms that we do not know were eligible to have received a 
sole-source contract. This is not obviously very good for our 
small businesses or the taxpayers who expect that their tax 
dollars be spent responsibility.
    And Mr. Ware, can you help us with this a little bit and 
tell us why do you think the Small Business Administration did 
not set up a certification process when it began awarding these 
sole-source contracts?
    Mr. WARE. The ``why'' to that is a little tricky because, I 
mean, you get various things. Documentation is something 
different. But they really wanted to get this program going 
they said and, you know, that is basically what they are 
measured on. And we are coming in talking about oversight and 
controls. And hey, this has to go to the right people. We have 
to make sure that bad actors are not in our program. So it was 
at the expense of speed.
    Ms. FINKENAUER. Yeah. So it was more just about getting 
something done versus ensuring that it was done in the right 
way.
    Okay. So could you talk a little bit, too, so if we change 
this, how could swift implementation of a certification program 
so we get that thing done ensure that Federal contracts go to 
deserving small businesses?
    Mr. WARE. That is what our office is all about. Our office 
is trying to be proactive in terms of our approach to 
oversight. So not just coming in on the back end and constantly 
finding findings and millions of dollars went this way and 
millions went that way. We are trying to prevent the millions 
of dollars from going out, which is why this process is so 
important for them to implement in a timely manner. And we are 
still working with them on that, and they gave us some dates. 
They are talking, I think, March 2020, if I remember correctly. 
So it is looking like we will be making a shift in this area.
    Ms. FINKENAUER. So they are taking some of your 
recommendations to heart?
    Mr. WARE. I actually had the exact date of that somewhere 
in here.
    Ms. FINKENAUER. Okay. Well, if you find it later I would 
love to have it because this is something that matters a lot. I 
mean, women small business, you know, it is something we care a 
great deal about on this Committee and making sure that these 
programs that are set up are actually done in the right way and 
achieving the objective that we all up here believe in. It is 
just so important.
    So thank you so much for your work and looking into the 
things that need to be looked into.
    And did you find the date?
    Oh, I was going to say I saw by your face you might have 
found that date. That is totally fine if you did not. But just, 
you know, if you could follow up with that, that would be 
great. I think this is just, again, something we need to 
continue to keep our finger on and make sure that these things 
are getting done and these changes are made so these programs 
work the way that they should.
    Mr. WARE. Okay.
    Ms. FINKENAUER. Thank you, Mr. Ware. I really appreciate 
it. Good to see you.
    Mr. WARE. Thank you. All right. Good to see you, too.
    Chairwoman VELAZQUEZ. The gentlelady yields back.
    With that, I want to thank Mr. Ware for taking time out of 
his schedule to be with us today. This committee greatly 
appreciates the hard work the OIG is doing to identify critical 
challenges facing the SBA. Your office continues to shine a 
light on issues that demand attention from the SBA leadership 
and that demand continued oversight from this committee.
    While I am pleased to see progress being made in certain 
areas, the SBA needs to do more. This committee remains 
committed to working with the SBA in a bipartisan fashion to 
ensure these challenges are appropriately addressed.
    I do have another question to address to you, Mr. Ware. 
Does the OIG have trouble receiving documents that it requests 
from SBA?
    Mr. WARE. We do not. We have basically had an issue to deal 
with when the administration was brand new and we handled it. 
We have no issues receiving now.
    Chairwoman VELAZQUEZ. Thank you.
    Before we conclude, I would like to take this opportunity 
to express my deep disappointment in the SBA's lack of 
responsiveness to this committee's inquiries regarding the 
Women-Owned Small Business Contracting Program and the SCORE 
program. As I noted in my opening statement today, SBA has 
unreasonably delayed implementing the women certification 
process, a process that is required by law. While this delay is 
troubling, equally concerning is SBA's refusal to provide this 
committee answers to its legitimate oversight questions 
regarding this program.
    On June 19, a bipartisan letter was sent to Associate 
Administrator Rob Wong requesting information concerning the 
Women's Procurement Program, but today, almost 4 months later, 
SBA has failed to provide any response and it has given no 
indication of when a response may be expected. Moreover, on 
July 11, 2019, the Subcommittee on Investigations, Oversight, 
and Regulations held a hearing titled ``SBA Management and 
Oversight of SCORE,'' after which questions for the record were 
submitted to Associate Administrator Allen Gutierrez. Despite 
an August 1st deadline, the subcommittee has not received a 
response from the SBA.
    Therefore, I would like to submit for the record the June 
19, 2019, letter to Associate Administrator Wong and the July 
11, 2019, questions for the record on the SCORE program.
    Without objection, so ordered.
    I request on the record that SBA provide the committee a 
swift response to its questions. I call on SBA to work with 
this committee proactively in a bipartisan fashion to address 
the serious issues facing the agency.
    I would ask unanimous consent that members have 5 
legislative days to submit statements and supporting materials 
for the record.
    Without objection, so ordered.
    If there is no further business to come before the 
committee, we are adjourned. Thank you.
    [Whereupon, at 12:42 p.m., the committee was adjourned.]
    
                            A P P E N D I X
                            
                            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                            

                                 <all>
</pre></body></html>
